IN THE SUPREME COURT OF THE UNITED STATES

No. 19-1246

RITA MCDANIEL, INDIVIDUALLY AND AS PERSONAL REPRESENTATIVE OF
THE ESTATE OF JOHNNY F. MCDANIEL, DECEASED, PETITIONER

Vv.

UPSHER-SMITH LABORATORIES, INC., RESPONDENT

CERTIFICATE OF SERVICE

I, CARY SILVERMAN, counsel for respondent Upsher-Smith Laboratories,
LLC, and a member of the Bar of this Court, certify that, on June 22, 2020, the brief
in opposition for respondent was served via electronic mail (by agreement) upon the

following counsel for petitioner:

E. Kirk Wood, Jr. Samuel C. Cole

Wood Law Firm, LLC Sam Cole Legal Services, PLLC
Post Office Box 382434 6721 Kemper Drive
Birmingham, Alabama 35238 Plano, Texas 75023
kirk@woodlawfirmllc.com samcolelegalservices@gmail.com

I further certify that all parties required to be served have been served.

 
